                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS


                             CLOSEOUT MEMORANDUM

Case Number: A03080045
                                                                            11          Page 1of 1



    In August 2003, we received allegations of plagiarism against the subject.1 Several
    of the allegations were of the type commonly referred to as "self-plagiarism." NSF
    does not consider self-plagiarism to be research misconduct.2 The two remaining
    allegations are both verbatim plagiarism, but from different sources. The first
    allegation is that the subject copied a verbatim explanation of a mathematical
    technique he utilized.3 The second allegation is the subject's use of equations
    without proper attribution.4
    For the first allegation, the subject referenced the paper from which the text was
    taken, and he argued his use of that text to describe the decomposition was so
    technically constrained that it is considered to be a generic description. The subject
    provided 10 examples of similar language from unrelated papers. We agree with
    the subject and conclude the first allegation of plagiarism is not substantiated.
    For the second allegation, the subject used a set of equations as a point of further
    analysis and discussion. Although the subject had referenced a publication as the
    source of that set of equations, the complainant argued another researcher was the
    first to publish that exact solution. The paper the subject referenced was published
    earlier and was more general, but it appeared only in a non-English journal, so it is
    likely many readers, including the complainant, were unaware of it. The
    professional society5 in this research area that published the papers also received
    the second allegation and looked into it. It was aware of the same facts and
    concluded there were insufficient grounds to find plagiarism. We agree with the
    subject and the professional society in concluding the second allegation of
    plagiarism is not substantiated.
    Thus, we conclude neither allegation of plagiarism against the subject has
    substance. Accordingly, this case is closed.


         (footnote redacted).
       2 45 CFR 5 689.1(a)(3) defines plagiarism as misappropriation of another's ideas or words.
         (footnote redacted).
         (footnote redacted).
       5 (footnote redacted).
